TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  While Documentation Was Not Available to
                  Fully Assess the Return Preparer Program,
                   Identification and Processing of Preparer
                           Penalties Can Be Improved



                                           July 29, 2008

                              Reference Number: 2008-30-147




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     July 29, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – While Documentation Was Not Available to Fully
                                  Assess the Return Preparer Program, Identification and Processing of
                                  Preparer Penalties Can Be Improved (Audit # 200730032)

 This report presents the results of our review of return preparer penalties. The overall objective
 of this review was to determine whether the Return Preparer Program1 is effectively managed
 and penalties are appropriate. This review was part of our Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 One action the Internal Revenue Service (IRS) uses to try to correct unscrupulous preparer
 behavior is assessing penalties against preparers of inaccurate tax returns. In Tax Year 2005, tax
 return preparers were used for almost 60 percent of all individual tax returns filed. However, we
 were unable to review a sufficient number of examination case files to evaluate the Return
 Preparer Program because many of the files we requested were not provided. Tax and penalty
 assessments might not be sustained when the IRS cannot obtain the workpapers to identify the
 basis for the assessment if the taxpayer or preparer files an appeal or claim. This would result in
 unfair treatment of taxpayers who file accurate tax returns.

 Synopsis
 The Internal Revenue Code authorizes use of various sanctions (e.g., preparer penalties) against
 unscrupulous preparers of tax returns. Preparer penalties apply to instances in which an
 understatement of tax liability is due to 1) a position that was known–or that reasonably should

 1
     Appendix V presents a glossary of terms used in this report.
                   While Documentation Was Not Available to Fully Assess the
                   Return Preparer Program, Identification and Processing of
                             Preparer Penalties Can Be Improved


In May 2008, the IRS made changes to its Embedded Quality Review System. These changes
will help the IRS determine the extent to which penalties are not considered or documented and
to take the appropriate corrective actions.
We also reviewed 10 cases with penalties assessed. While we believe that the penalties assessed
against the preparers were warranted in the 10 cases, we noted that:
   •   8 of the 10 cases did not appear to have been reviewed by the Return Preparer
       Coordinator.
   •   3 of the 10 cases included inappropriate comments about the preparer that could indicate
       that the preparer might be subject to a penalty investigation.
In addition to examination cases, we reviewed 30 PACs in 2 Area Offices. These files were
physically located at the offices we visited, so we were able to obtain all the cases in the sample.
Many of the procedures were properly followed, including decisions to open cases, properly
notify the preparers, and effectively communicate and coordinate between the involved parties.
However, we identified 8 PACs for which more than the allowed number of tax returns was
included in the initial sample and 11 PACs for which the Return Preparer Coordinator did not
determine how to proceed with the PAC in a timely manner. During our review, the IRS made
changes to its procedures that addressed these issues on the PACs.
In addition, one Area Office did not maintain logs of activity or key events in PAC
administrative files. Activity logs help provide for more efficient use of resources when 1) the
PACs are included in an operational review and 2) a newly appointed Return Preparer
Coordinator takes over the administration of an ongoing PAC.

Recommendations
We recommended that the Director, Examination, Small Business/Self-Employed Division,
1) ensure that Embedded Quality Review System data relating to preparer penalties are analyzed
to determine the extent of instances when preparer penalties are not considered and asserted and
take necessary corrective action, 2) remind examiners about the importance of keeping preparer
penalty information separate from client examination workpapers, and 3) ensure that all Area
Offices adopt a means of documenting key events for each PAC.

Response
IRS management agreed with our recommendations. The Director, Examination, Small
Business/Self-Employed Division, will ensure that:
   •   An analysis of Embedded Quality Review System data relating to return preparer
       penalties is conducted to determine the extent of instances when preparer penalties are

                                                                                                   3
                  While Documentation Was Not Available to Fully Assess the
                  Return Preparer Program, Identification and Processing of
                            Preparer Penalties Can Be Improved


       not considered and asserted and take appropriate corrective actions based on the results of
       the analysis.
   •   A reminder is issued to examiners regarding the importance of separating preparer
       penalty information from client examination workpapers.
   •   All Area Directors provide confirmation that their Return Preparer Coordinators are
       following procedures for documenting key events for each PAC within their Areas.
However, management was concerned that the measurable benefits on tax administration shown
in Appendix IV of this report might be overstated. They believed that further analysis of the
facts and circumstances surrounding the preparers’ actions would be required to estimate the
number of penalties that would have applied. Management’s complete response to the draft
report is included as Appendix VII.

Office of Audit Comment
While we recognize that an examiner might determine that a penalty should not be asserted after
conducting a penalty investigation in the cases we included in Appendix IV, no penalty
investigations were conducted in these cases. Therefore, we did not adjust the potential outcome
measures included in this report.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8510.




                                                                                                4
                         While Documentation Was Not Available to Fully Assess the
                         Return Preparer Program, Identification and Processing of
                                   Preparer Penalties Can Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          National and Area Office Personnel Have Tools in Place to Promote
          and Manage the Return Preparer Program....................................................Page 3
          Closed Examination and Penalty Case Files Were Not Always Provided ...Page 4
          Examiners Did Not Always Adequately Consider Preparer Penalties
          or Follow Preparer Penalty Procedures During Examinations .....................Page 5
                    Recommendation 1:........................................................Page 6

          Return Preparer Coordinators Did Not Always Review Preparer Penalty
          Case Files, but Penalties Assessed Were Warranted ....................................Page 6
                    Recommendation 2:........................................................Page 8

          Management Implemented Many Controls and Procedures for Program
          Action Cases, but Some Improvements Can Be Made .................................Page 8
                    Recommendation 3:........................................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measures...............................................................Page 17
          Appendix V – Glossary of Terms .................................................................Page 18
          Appendix VI – Cases for Which Preparer Penalties Might Have
          Been Warranted ............................................................................................Page 20
          Appendix VII – Management’s Response to the Draft Report.....................Page 21
      While Documentation Was Not Available to Fully Assess the
      Return Preparer Program, Identification and Processing of
                Preparer Penalties Can Be Improved




                    Abbreviations

GAO           Government Accountability Office
IRS           Internal Revenue Service
PAC           Program Action Case
RPC           Return Preparer Coordinator
                     While Documentation Was Not Available to Fully Assess the
                     Return Preparer Program, Identification and Processing of
                               Preparer Penalties Can Be Improved




                                            Background

In Tax Year 2005, tax return preparers were used for almost 60 percent of all individual tax
returns filed. The Internal Revenue Service (IRS) has identified unscrupulous preparers, often
when examining a preparer’s client tax returns. These examinations identify adjustments to the
client’s tax liability due to items such as inflated expenses or deductions and unreported income.
Understatement of tax liability is a contributing factor to the tax gap,1 which has been estimated
to be about $345 billion per year, with individual underreporting totaling $197 billion.2
The Internal Revenue Code authorizes use of various sanctions (e.g., preparer penalties) against
unscrupulous preparers of tax returns. The penalties apply to instances in which an
understatement of tax liability is due to 1) a position that was known–or that reasonably should
have been known–by the preparer and the position did not meet the applicable legal standard
($250 penalty per return during the time period covered by our review) or 2) a willful attempt to
understand the tax liability or the reckless or intentional disregard of rules or regulations by the
preparer ($1,000 penalty per return during the time period covered by our review).3 The preparer
penalty amounts increased to, respectively, $1,000 and the higher of $5,000 or 50 percent of the
income derived by the return preparer of the tax return for tax returns prepared after
May 25, 2007. Because these penalties are assessed per return, the total amount of the penalty
can quickly escalate when a preparer penalty case involves multiple years for each taxpayer and
many taxpayers. Other sections of the Internal Revenue Code authorize assessment of additional
penalties related to return preparers, but our report addresses only the two mentioned above.
Penalty cases are initiated within the Examination function to determine if the preparer should be
subject to a penalty or other sanction. These cases can be initiated based on examination of an
individual tax return or a group of tax returns.
A group of tax returns prepared by one tax return preparer being examined under the
coordination of the Area Office Return Preparer Coordinator (RPC) is referred to as a Program
Action Case (PAC). Initiation of a PAC requires the approval of the Area Office Director.
Generally, no more than 30 client tax returns should be included in the initial PAC sample to
determine if there is a trend of errors by the preparer.
Initiation of a penalty case against a preparer based on examination of a client tax return that is
not part of a PAC must be approved by the group manager. The RPC should be advised of the


1
  Appendix V presents a glossary of terms used in this report.
2
  Individual underreporting includes underreported income and overstated deductions and exemptions on tax returns
of individuals.
3
  Internal Revenue Code Sections 6694(a) and (b).
                                                                                                         Page 1
                        While Documentation Was Not Available to Fully Assess the
                        Return Preparer Program, Identification and Processing of
                                  Preparer Penalties Can Be Improved



case and its result, but he or she does not provide the same degree of coordination as with PACs.
We will refer to these as preparer penalty cases.
The IRS has implemented various types of procedures for working PACs and preparer penalty
cases. PAC procedures effective during our review were provided in an interim guidance
memorandum issued on February 18, 2005, and in the Preparer/Promoter Penalties section of the
Penalty Handbook in the Internal Revenue Manual. Procedures for opening and processing
preparer penalty cases were also in the Penalty Handbook. Step-by-step instructions for these
cases were maintained in a document on the Return Preparer webpage of the IRS Intranet at the
time of our review. On February 1, 2008, the IRS issued a new section of the Internal Revenue
Manual that describes RPC duties and responsibilities.
As a result of PACs and preparer penalty cases, the IRS assessed penalties totaling $2.9 million
on 525 individual return preparers from January 1, 2004, through February 17, 2007.4 This
represents less than 1 percent of the return preparers identified on individual tax returns
examined during the period. As of February 17, 2007, 220 of the 525 preparer accounts still had
a balance due, and 38 contained indicators that the amounts were currently not collectible. In
80 of the 220 cases, the most recent penalty assessment occurred prior to January 1, 2006.
This review was performed at the Small Business/Self-Employed Division Area Office
Examination function Planning and Special Programs function offices in Chicago, Illinois;
Philadelphia, Pennsylvania; and St. Paul, Minnesota, during the period May through
December 2007. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. Except as noted below, we believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Our scope was limited in two areas because we were unable to obtain all of the case
files requested. This includes our reviews of preparer penalty case files for which preparer
penalties were assessed and examinations in which no preparer penalties were assessed. As a
result of the limitations, we will report only those observations made on the limited number of
cases reviewed. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




4
    These figures include only those penalties relating to Internal Revenue Code Sections 6694(a) and (b).
                                                                                                             Page 2
                  While Documentation Was Not Available to Fully Assess the
                  Return Preparer Program, Identification and Processing of
                            Preparer Penalties Can Be Improved




                                Results of Review

National and Area Office Personnel Have Tools in Place to Promote
and Manage the Return Preparer Program

The Return Preparer Program National Analyst and the RPCs located in Area Offices have
communication channels in place to remain informed of current issues and have procedures to
educate revenue agents and tax compliance officers about preparer penalties. For example:

   •   The National Analyst holds monthly conference calls with Area Office RPCs. This
       facilitates information sharing and provides a means for the National Analyst to discuss
       trends identified during operational reviews and visitations.

   •   The National Headquarters staff conducts reviews and assistance visits to Area Offices.
       These actions provide the National Analyst with information on the effectiveness of the
       Program and processes that need improvement.

   •   The RPCs participate in group meetings in the two Area Offices we visited. These
       meetings provide opportunities to increase the awareness of preparer penalties and to
       instruct examiners about preparer penalty requirements and procedures.

   •   The RPCs in the two Area Offices we visited were available to provide advice to revenue
       agents and tax compliance officers regarding preparer activity. This is helpful to
       examiners because preparer penalty cases are not worked as often as routine taxpayer
       examinations, and examiners might need to be reminded of the requirements and
       procedures.

   •   The RPCs submit quarterly status reports for open and closed PACs and preparer penalty
       cases in their Area Offices. The National Analyst uses the input to identify Area Offices
       to visit for operational reviews and prepares a national report to measure the Program as a
       whole.

   •   A Return Preparer webpage on the IRS Intranet contains links to reference materials and
       other essential information that examiners can use to obtain information about preparer
       penalty cases.
In addition, the IRS is in the process of developing a Servicewide Return Preparer Strategy. The
goal of the Strategy is to enhance tax administration through collaboration with return preparers,
by providing clear guidance and support while ensuring compliance with the tax laws.

                                                                                           Page 3
                    While Documentation Was Not Available to Fully Assess the
                    Return Preparer Program, Identification and Processing of
                              Preparer Penalties Can Be Improved



While the IRS has many tools in place to promote and manage the Return Preparer Program, we
were unable to assess the overall effectiveness of the Program. Specifically, we were unable to
obtain and review an adequate number of closed examination or penalty case files to reach
conclusions for some of our audit tests.

Closed Examination and Penalty Case Files Were Not Always
Provided
IRS files maintenance was the subject of a report recently issued by the Government
Accountability Office (GAO).5 The report noted that 10 percent to 14 percent of the case files
requested were not provided in 2 prior audits the GAO had conducted, and that 19 percent were
not provided in 1 audit conducted by the Treasury Inspector General for Tax Administration. In
our current review, the percentage of files not provided was even higher. Specifically:
    •   30 (59 percent) of 51 sampled examination case files without a return preparer penalty
        were not provided. We eliminated 4 of the 21 cases provided because the examinations
        were conducted via correspondence, or there was no direct contact with the taxpayer or
        preparer, which left just 17 cases without penalties for our review.
    •   39 (80 percent) of 49 sampled examination case files with a return preparer penalty were
        not provided, which left just 10 penalty cases for our review.
While we requested the samples of examination case files multiple times from storage files using
routine procedures and special requests through IRS management, we never received the
examination case files. National Headquarters and Area Office return preparer personnel
advised us that they also have had difficulty obtaining closed penalty case files. The GAO
determined that the IRS does not have sufficient data with which to assess the performance of its
paper case file management processes or to identify the reasons why case files cannot be located.
The IRS responded to the GAO report that it would form a study group to address the issue. IRS
management advised us that their study will include all types of case files, including penalty case
files. Therefore, we made no recommendation for this area.
It is important for the IRS to determine the cause of the problem and take corrective action. In
addition to workpapers explaining the IRS’ reasoning for assessing penalties or additional tax,
examination case files routinely include the original tax returns filed by the taxpayers. When the
IRS cannot obtain the workpapers to identify the basis for an assessment, additional tax and
penalty(ies) might not be sustained if the taxpayer or preparer files an appeal or claim. This
would result in unfair treatment of taxpayers who file accurate tax returns.



5
 Tax Administration: The Internal Revenue Service Can Improve Its Management of Paper Case Files
(GAO-07-1160, dated September 2007).
                                                                                                   Page 4
                  While Documentation Was Not Available to Fully Assess the
                  Return Preparer Program, Identification and Processing of
                            Preparer Penalties Can Be Improved



could not determine if there were trends that identified more specific reasons why penalty cases
were not pursued and files were not documented.
We reviewed the Embedded Quality Review System to obtain additional information regarding
the assessment of preparer penalties. Although the System captured data regarding penalties
overall, specific information relating to preparer penalties was not available. However, in
May 2008, the IRS added a reason code to the penalty attribute regarding consideration and
assertion of preparer penalties. This information could be useful to determine how often
penalties are not considered or documented and to identify the possible reasons.

Recommendation
Recommendation 1: The Director, Examination, Small Business/Self-Employed Division,
should ensure that Embedded Quality Review System data relating to preparer penalties are
analyzed to determine the extent of instances when preparer penalties are not considered and
asserted and take necessary corrective action.
       Management’s Response: IRS management agreed with the recommendation. The
       Director, Examination, Small Business/Self-Employed Division, will ensure that an
       analysis of Embedded Quality Review System data relating to preparer penalties is
       conducted to determine the extent of instances when preparer penalties are not considered
       and asserted. Appropriate corrective action will be determined and implemented based
       upon the results of this analysis.
       However, management was concerned that the measurable benefits on tax administration
       might be overstated. They believed that further analysis of the facts and circumstances
       surrounding the preparers’ actions would be required to estimate the number of penalties
       that would have applied.
       Office of Audit Comment: While we recognize that an examiner might determine
       that a penalty should not be asserted after conducting a penalty investigation, no penalty
       investigations were conducted in these cases. Therefore, we did not adjust the potential
       outcome measures included in Appendix IV.

Return Preparer Coordinators Did Not Always Review Preparer
Penalty Case Files, but Penalties Assessed Were Warranted
Although we were able to obtain case files for only 10 of the 49 sampled preparers that had a
penalty assessed, we saw an indication that many procedures were followed. For example:
   •   The group manager’s approval was obtained for initiating the preparer penalty case.
   •   Statutes were being observed to protect the assessment.


                                                                                           Page 6
                       While Documentation Was Not Available to Fully Assess the
                       Return Preparer Program, Identification and Processing of
                                 Preparer Penalties Can Be Improved



      •    Applicable copies of the client tax return and examination workpapers were included in
           the case files to support the reason for opening the preparer penalty case.
      •    Preparers were referred to the Office of Professional Responsibility when appropriate.
Because the number of preparer penalty cases available for our review was limited, we could not
determine if these procedures were followed in the majority of cases. However, we identified
the following conditions that warrant management’s attention:
      •    8 of the 10 case files did not contain an indication that the RPC had reviewed the case.
      •    3 of the 10 case files included copies from client examination workpapers that contained
           inappropriate comments about the preparer that could indicate the preparer might be
           subject to a penalty investigation.8 This is the same condition that we observed in one of
           the cases without penalties.
While we believe that the penalties assessed against the 10 preparers were warranted, when the
cases are not subject to quality review, the RPCs might not have adequate information with
which to identify patterns of noncompliance and initiate PACs.
Procedures for preparer penalty cases on the Return Preparer webpage of the IRS Intranet require
that all preparer penalty cases be reviewed by the RPC. In addition, an interim guidance
memorandum issued in August 2005 made group clerks responsible for sending the closed cases
to the RPC and explaining RPC responsibilities for reviewing the cases. However, Internal
Revenue Manual procedures that existed when the cases included in our review were processed
were not clear on the subject and could even have appeared to contradict procedures on the
webpage and in the interim guidance. The IRS revised the Internal Revenue Manual on
February 8, 2008, to clarify the requirement to forward penalty case files through the RPC for
review. Therefore, we made no recommendation in this area. The National Analyst and RPCs
should continue to monitor the process to ensure that the revised procedures are effective.
In addition, the procedures on the IRS webpage and in the Internal Revenue Manual include a
caution that all information on a return preparer’s activities and the applicability of any penalties
relating to the return preparer should be separated from the taxpayer’s (client’s) case file. We
did not contact the examiners to determine why they included the comments on preparers in the
client workpapers. However, the fact that a preparer penalty was being considered for the
preparers of client tax returns could inadvertently be disclosed to the client taxpayers if they
requested and obtained copies of their examination workpapers.




8
    These cases are included in Appendix IV.
                                                                                               Page 7
                  While Documentation Was Not Available to Fully Assess the
                  Return Preparer Program, Identification and Processing of
                            Preparer Penalties Can Be Improved



Recommendation

Recommendation 2: The Director, Examination, Small Business/Self-Employed Division,
should issue a reminder to examiners about the importance of keeping preparer penalty
information separate from client examination workpapers.

       Management’s Response: IRS management agreed with the recommendation. The
       Director, Examination, Small Business/Self-Employed Division, will ensure that a
       reminder is issued to examiners regarding the importance of separating preparer penalty
       information from client examination workpapers by publishing in the Technical Digest an
       article that includes a link to the Return Preparer Program web site where detailed
       information is contained regarding case procedures.

Management Implemented Many Controls and Procedures for
Program Action Cases, but Some Improvements Can Be Made

Our review of 30 PACs physically located in 2 Area Offices identified many controls and
procedures in place to ensure an effective PAC process. For example:

   •   The RPCs performed adequate research on preparers to ensure that PACs were initiated
       on preparers when there were indications that the tax shown on the tax return was
       understated or a refund was overstated.

   •   Although the Area Offices did not conduct formal Penalty Steering Committee meetings
       to discuss and recommend PACs, they routed the PAC memoranda to critical personnel
       who would comprise a steering committee to obtain their concurrence before requesting
       the Area Office Director’s approval. In addition, the Lead Development Center was
       notified of proposed PACs to avoid a potential duplication of efforts.

   •   When appropriate, the preparers were notified of the initiation of a PAC.

   •   Fact sheets or information memoranda were included with the examinations sent to the
       groups so the examiners would be aware of the types of questionable issues identified for
       the preparer.

   •   PACs were generally assigned to tax compliance officer groups, and tax returns for each
       preparer were assigned to one group. This helped to ensure efficiency and consistency
       within the PAC.

   •   Individual tracking codes were used for each project so the status of the examinations
       could be monitored through management information reports.

                                                                                          Page 8
                   While Documentation Was Not Available to Fully Assess the
                   Return Preparer Program, Identification and Processing of
                             Preparer Penalties Can Be Improved



However, management can make improvements in how Area Offices identify sample sizes,
monitor PACs nearing closure to ensure that timely decisions are made, and maintain activity
logs in the administrative case files.

PACs included larger initial samples of tax returns for examination than
recommended by the procedures

The PAC interim guidance memorandum issued in February 2005 recommends that the initial
sample of tax returns identified for examination in PACs should normally consist of no more
than 30 tax returns prepared by the preparer (client tax returns). The RPCs are to monitor the
results of the initial sample to determine if additional examinations are warranted.

Eight of the 30 PACs we reviewed in the 2 Area Offices included more than 30 client tax returns
(80 returns to 141 returns) in the initial samples for examination, but the PAC memoranda did
not contain justification for the larger sample sizes. Additional PACs contained more than 30 tax
returns, but the increased sample sizes for most were either justified in the PAC memoranda or
approved prior to issuance of the guidance limiting the initial sample size.

While the PAC interim guidance memorandum provides for limiting the initial sample size, the
Internal Revenue Manual in effect when the PACs were initiated was vague on the subject. It
provided that the RPC will requisition an “appropriate” sample of tax returns prepared by the
subject preparer and that a sample of returns will be examined after PAC approval.

The Criminal Investigation Division also issued procedures on requests for assistance in opening
PACs on questionable preparers and included the provision that the initial sample be limited to
30 client tax returns. The memorandum allowed for requesting additional cases in the initial
sample under special circumstances when justification was provided. These assistance PACs
often include more than 30 client tax returns to establish the trend and dollar harm to the Federal
Government for the Criminal Investigation Division to move the cases forward for prosecution.

The RPC in 1 Area Office misinterpreted the procedures and believed that the Area Office could
include an initial sample of up to 60 client tax returns: the 30 returns provided for by the routine
PAC procedures plus an additional 30 returns provided for by the Criminal Investigation
Division procedures when initiating assistance PACs. This Area Office initiated four of the eight
PACs in which larger initial samples were identified for examination. The Area Office is now
aware that the initial sample should include only 30 tax returns regardless of the source of the
PAC, unless a larger sample is formally requested and approved.

The examination of more tax returns than required, particularly by field examiners, could result
in ineffective use of Examination function resources. The IRS was revising the Internal Revenue
Manual during our review. The revision was issued on February 8, 2008, and clarified the
sample size requirement for PACs. Therefore, we made no recommendation for this issue.

                                                                                             Page 9
                  While Documentation Was Not Available to Fully Assess the
                  Return Preparer Program, Identification and Processing of
                            Preparer Penalties Can Be Improved



RPCs did not determine how to proceed with PACs in a timely manner

The examinations were completed or substantially completed on 11 of the 30 PACs prior to our
review, but the RPCs were not monitoring the PACs to ensure that timely decisions were made.
Management information system reports showed that all or almost all examinations of the client
tax returns were completed 1 month to 15 months (an average of 6 months) prior to our visit or
the date the PAC was closed. However, the RPCs did not start the closing process in a timely
manner, including actions such as determining whether penalties should be assessed or
contacting the Examination function groups or the Criminal Investigation Division to discuss the
results of the examinations or the status of the criminal investigation on the preparers for these
PACs. The RPC staffs initiated these actions on some of the PACs while we were reviewing the
PAC or when we asked about the current status of the PAC.

The RPCs we contacted advised us that they have overall responsibility to monitor ongoing
PACs. However, little written guidance for monitoring ongoing PACs existed. The Internal
Revenue Manual made RPCs responsible for coordinating “all” Examination function activity on
income tax returns prepared by return preparers approved for program action (i.e., a PAC) by the
Area Office Director. Procedures specifically relating to PACs included information for
identifying preparers that should be included in a PAC and getting client tax returns in the
examination stream but were silent on monitoring while the PACs were in process. The
procedures then skipped to responsibilities for monitoring preparers after actions such as
assessing penalties were completed.

Interim guidance was also silent on monitoring ongoing PACS. It required RPCs to monitor the
results of the initial sample cases and, upon conclusion of the examinations, to determine
whether the results warranted additional examinations. The guidance then continued with
procedures for requesting examinations of additional client tax returns.

Untimely decisions about the results of PACs can 1) lead to ineffective use of resources when the
results of the examinations do not support allegations about the preparer or 2) allow the preparer
to remain unpenalized when the examinations support the allegations about the preparer.

In February 2008, the IRS issued a revision to the existing Internal Revenue Manual section and
also added a new section describing the duties and responsibilities of the RPCs. The sections
added specific monitoring requirements for the RPCs during ongoing PACs, including a
provision to contact the Examination function group manager at least monthly to discuss the
progress of each PAC and the need to consider closing the PAC if client returns are found to be
substantially correct or the issues of concern are not found. These newly issued Manual sections
fully address our concerns with monitoring ongoing PACS. Therefore, we made no
recommendation for this issue. Future reviews of the Return Preparer Program by the IRS
should determine whether the provisions added to the Internal Revenue Manual are being
followed.

                                                                                          Page 10
                       While Documentation Was Not Available to Fully Assess the
                       Return Preparer Program, Identification and Processing of
                                 Preparer Penalties Can Be Improved



One Area Office did not maintain logs of activity or key events in PAC
administrative files
One Area Office maintained 1) an electronic file to record key events and decisions reached for
each PAC and 2) a sheet in the front of the file to document dates when key events occurred.
However, the other Area Office we reviewed did not maintain any type of log or record of key
events or decisions.
Existing procedures do not require recordation of activities on PACs. However, documentation
of this type would provide an appropriate means for recording the monitoring activities and meet
the general internal control standards for the Federal Government.9 These standards require that
“Information should be recorded and communicated to management and others within the entity
who need it and in a form and within a time frame that enables them to carry out their internal
control and other responsibilities.”
Activity records would be especially helpful in the PACs because PACs can be ongoing for some
time and the RPC position is intended to be a rotational assignment lasting approximately
3 years. Many of the PACs we reviewed were initiated prior to Calendar Year 2006 and were
still ongoing. Some of the PACs were initiated by a prior RPC, and others will still be underway
when current RPCs move to different positions. Activity records would help provide for more
efficient use of resources, not only when the PACs are included in an operational review but also
when a newly appointed RPC takes over the administration of an ongoing PAC.

Recommendation
Recommendation 3: The Director, Examination, Small Business/Self-Employed Division,
should ensure that all Area Offices adopt a means of documenting key events for each PAC.
          Management’s Response: IRS management agreed with the recommendation. The
          Director, Examination, Small Business/Self-Employed Division, will ensure that all Area
          Directors provide confirmation that their RPCs are following Return Preparer Penalty
          procedures for documenting key events for each PAC within their Areas.




9
    Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, dated November 1999).
                                                                                                     Page 11
                     While Documentation Was Not Available to Fully Assess the
                     Return Preparer Program, Identification and Processing of
                               Preparer Penalties Can Be Improved



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Return Preparer Program1 is
effectively managed and penalties are appropriate. However, we could not fully accomplish our
audit objective because we were unable to obtain a sufficient number of preparer penalty case
files and examination workpapers for review.
To review the appropriateness of preparer penalties assessed, we obtained a Master File extract
of Master File Tax Account Code 552 accounts with a Transaction Code 2403 that posted from
January 1, 2006, through February 17, 2007, with a Reference Number 622, 645, 646, or 650.4
The extract produced a universe of 671 Transaction Codes 240 on 232 preparers. While they did
not have exact numbers for comparison, IRS personnel advised us that the number of penalties
we identified seemed appropriate. Due to the small universe of cases, we used the judgmental
sampling technique and decided on a sample size of 30 preparer penalty cases. We randomly
identified a sample of 49 preparers to try to obtain 30 cases for review. However, we were able
to obtain case files for only 10 cases. To validate our data, we researched the sample of
49 preparer cases on the Integrated Data Retrieval System and determined that the cases
identified in the data extract were preparer penalties assessed under Internal Revenue Code
Sections 6694(a) and (b) with the correct transaction dates and dollar amounts.
To identify examinations without a preparer penalty assessed, we obtained from the Examination
Operational Automation Database a download of examinations closed from January 1, 2004,
through June 20, 2007, for which a preparer was shown in the Database. We were advised by
IRS personnel that the examiners do not always enter a preparer in this Database, so the data
might be incomplete. Therefore, we did not attempt to validate these data.
The Examination Operational Automation Database output contained 328,779 examinations for
131,661 unique preparers. We then performed queries to identify cases 1) without penalties,
2) with issues that commonly result in assessment of a preparer penalty, and 3) with an
assessment of more than a specified amount.
The resulting universe included 4,530 examinations for 3,939 unique preparers. Because IRS
personnel advised us that the data might not be complete, we used the judgmental sampling

1
  Appendix V presents a glossary of terms used in this report.
2
  A code used to designate accounts of individuals that have miscellaneous penalty assessments.
3
  A code used to input an assessment of miscellaneous penalties. The reference number with the transaction code
identifies the type of penalty.
4
  These reference numbers represent preparer penalty assessments made under the authority of Internal Revenue
Code Sections 6694(a) and (b).
                                                                                                         Page 12
                  While Documentation Was Not Available to Fully Assess the
                  Return Preparer Program, Identification and Processing of
                            Preparer Penalties Can Be Improved



technique and decided on a sample size of 30 examination cases. We randomly identified a
sample of 51 cases to try to obtain 30 cases for review. However, we were able to obtain case
files for only 21 of the 51 examinations. While reviewing the 21 case files, we eliminated an
additional 4 cases because the contacts were made via correspondence or there had been no
contact with the taxpayer or preparer during the examination. We reviewed the remaining
17 case files.
To identify PACs to review, we obtained a list of the 262 open and closed PACs initiated by the
Midwest and Central Area Offices from January 1, 2004, through July 19, 2007. To select PACs
for review that appeared to have had sufficient work completed to assess, we used the
judgmental sampling technique and selected the PACs based on the number of client
examinations either in process or closed and discussions with the RPCs concerning the status of
the PACs. The sample included 15 PACs from each Area Office.
To accomplish our audit objective, we:
I.     Evaluated oversight provided to the Return Preparer Program.
       A. Reviewed visitation and assistance reports and teleconference notes to determine
          oversight provided for the Program on a national level.
       B. Discussed how National Headquarters and Area Office quarterly management
          information systems statistical reports are prepared and used.
       C. Determined local emphasis placed on the Program by reviewing the RPCs’
          educational outreach schedules and training material.
       D. Identified local procedures used by the RPCs to determine whether the procedures are
          consistent with national procedures/policies.
II.    Determined whether questionable practices by preparers were being identified. We could
       not fully complete this sub-objective because of the scope limitation.
       A. Reviewed copies of questionnaires prepared by the National Headquarters Analyst to
          determine whether the use of preparer penalties is encouraged.
       B. Determined RPC procedures for reviewing files/referrals, identifying trends and
          actions taken once identified, and concerns with obtaining referrals from groups.
          Also, we held discussions with examiners to determine their awareness of a preparer
          investigation when examining a selected tax return not associated with a PAC or
          preparer penalty case and whether they become aware of prior issues once the PAC or
          preparer penalty case is closed and penalties are imposed.
       C. Reviewed the sample of 17 examinations in which there was no preparer penalty
          assessed to determine whether preparer penalties were considered when appropriate
          and case files were properly documented.

                                                                                        Page 13
                  While Documentation Was Not Available to Fully Assess the
                  Return Preparer Program, Identification and Processing of
                            Preparer Penalties Can Be Improved



III.   Determined whether preparer penalties assessed were appropriate. We could not fully
       complete this sub-objective because of the scope limitation.
       A. Reviewed the sample of 10 penalty case files identified from the Master File extract
          to determine whether procedures were followed and penalty criteria were correctly
          and consistently applied.
       B. Reviewed the preparer accounts on the Integrated Data Retrieval System to determine
          the current status of the penalty payment and whether the penalties were properly
          posted to the accounts.
IV.    Determined whether PACs were properly approved and controlled.
       A. Reviewed the sample of 30 PACs (15 from the Midwest Area Office and 15 from the
          Central Area Office) to determine whether:
          1. Preparer issues for the proposed PACs were discussed with appropriate personnel
             of other functions and the PACs were properly approved prior to initiating the
             PAC examinations or expanding the sample of examinations.
          2. Examinations were initiated promptly to allow for timely determinations about
             preparer penalties and RPCs were actively monitoring the progress of the PACs.
          3. Applicable sanctions were pursued by the RPCs if the examinations did not result
             in penalty assessments and decisions to close the PACs were appropriate.
V.     Determined the adequacy of efforts to monitor preparers after penalties were applied and
       to educate preparers about the effects of noncompliance.
       A. Held discussions with the RPCs to determine the extent of their efforts to:
          1. Monitor preparer behavior after a penalty was assessed.
          2. Monitor preparer accounts for correct posting and payment of the penalties.
          3. Coordinate with other functions regarding preparer penalty issues.




                                                                                        Page 14
                 While Documentation Was Not Available to Fully Assess the
                 Return Preparer Program, Identification and Processing of
                           Preparer Penalties Can Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Carl L. Aley, Director
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Joseph P. Snyder, Lead Auditor
Lawrence R. Smith, Senior Auditor
Chanda L. Stratton, Auditor




                                                                                      Page 15
                While Documentation Was Not Available to Fully Assess the
                Return Preparer Program, Identification and Processing of
                          Preparer Penalties Can Be Improved



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Deputy Commissioner, Small Business/Self-Employed Division SE:S:E




                                                                                   Page 16
                  While Documentation Was Not Available to Fully Assess the
                  Return Preparer Program, Identification and Processing of
                            Preparer Penalties Can Be Improved



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; 3 taxpayer (preparer) accounts totaling at least $750
    (see page 5).

Methodology Used to Measure the Reported Benefit:
We selected a judgmental sample of 17 taxpayers (preparers’ clients) from a universe of
3,939 for whom there was a preparer shown for the tax return and on which no preparer penalty
was assessed.
A preparer penalty might have been warranted in 3 of the 17 cases on which no preparer penalty
was assessed. The penalty in each case would be at least $250, depending on the type of penalty
proposed. We could not determine the exact penalty amount that would have been proposed
because the preparers were not contacted by the examiners to discuss potential preparer
penalties.

Type and Value of Outcome Measure:
•   Taxpayer Privacy – Potential; four taxpayers (preparers) affected (see pages 5 and 6).

Methodology Used to Measure the Reported Benefit:
We selected judgmental samples of 27 taxpayers (preparers’ clients) for whom there was a
preparer shown for the tax return (10 on which a preparer penalty was assessed, and 17 on which
no preparer penalty was assessed). The universes were 671 and 3,939, respectively. Our review
of the examination workpapers identified four cases containing comments that the preparer was
negligent, was a problem preparer, or should be referred to the RPC. This information about the
preparers could be disclosed to the taxpayers if they requested a copy of their examination
workpapers.




                                                                                             Page 17
                  While Documentation Was Not Available to Fully Assess the
                  Return Preparer Program, Identification and Processing of
                            Preparer Penalties Can Be Improved



                                                                                 Appendix V

                                Glossary of Terms

Area Office – A geographic organizational level used by IRS business units and offices to help
their specific types of taxpayers understand and comply with tax laws and issues.
Criminal Investigation Division – A function in the IRS that investigates potential criminal
violations of the Internal Revenue Code and related financial crimes in a manner that fosters
confidence in the tax system and compliance with the law.
Embedded Quality Review System – A quality review function within the IRS that measures
performance against attributes that are designed to identify actions that move the case toward
resolution through appropriate and timely actions. The attributes were designed to measure
adherence to existing guidelines.
Examination Operational Automation Database – An Examination function database
providing the ability to track examination results by issue.
Integrated Data Retrieval System – The IRS computer system capable of retrieving or
updating stored information. It works in conjunction with a taxpayer’s account records.
Internal Revenue Manual – The official source of information on policies and procedures for
use by all IRS offices.
Lead Development Center – A function in the IRS that centralizes the receipt and development
of leads on abusive tax schemes and promoters.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Office of Professional Responsibility – A function in the IRS that administers the laws and
regulations governing the practice of tax professionals before the Department of the Treasury
and the IRS.
Penalty Steering Committee – A group formed to identify patterns of preparer abuse and
recommend the initiation of projects on potentially abusive return preparers. Members can
include Planning and Special Programs function representatives, a representative designated by
the Area Director, and a Criminal Investigation Division representative.
Planning and Special Programs – A function responsible for planning, ordering, and delivering
tax returns for examination to the field examination groups.
Preparer Penalty Case – The examination of a preparer’s client’s tax return that is not part of a
Program Action Case.
                                                                                          Page 18
                  While Documentation Was Not Available to Fully Assess the
                  Return Preparer Program, Identification and Processing of
                            Preparer Penalties Can Be Improved



Program Action Case – The examination of tax returns prepared by one preparer or preparer
firm when information indicates a pattern of noncompliance with the Internal Revenue Code.
Return Preparer Coordinator – A designated staff member from the Planning and Special
Programs function responsible for coordinating all aspects of the Return Preparer Program.
Return Preparer Program – A program that allows for the examination of tax returns prepared
by a particular preparer if information indicates that a pattern of noncompliance exists. The
examinations are useful in identifying erroneous entries on tax returns and determining if
penalties are warranted against the tax return preparer.
Revenue Agent – An employee in the Examination function who conducts examinations of
more complex tax returns such as businesses, partnerships, corporations, and specialty taxes.
Tax Compliance Officer – An employee in the Examination function who primarily conducts
examinations of individual taxpayers through interviews at IRS field offices.
Tax Gap – The difference between what taxpayers should have paid in tax and what they
actually paid on time.




                                                                                         Page 19
     While Documentation Was Not Available to Fully Assess the
     Return Preparer Program, Identification and Processing of
               Preparer Penalties Can Be Improved



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 21
While Documentation Was Not Available to Fully Assess the
Return Preparer Program, Identification and Processing of
          Preparer Penalties Can Be Improved




                                                      Page 22
While Documentation Was Not Available to Fully Assess the
Return Preparer Program, Identification and Processing of
          Preparer Penalties Can Be Improved




                                                      Page 23
